Office of the Inspector General     Audit Report
                                  To the Senior Vice President,
                                  Procurement, and the Vice
                                  President and Controller




RECEIVE AND INSPECT
MATERIAL PROCESS
INTERNAL CONTROL
REVIEW




Audit Team                                        Audit 2005-032F
Ricky L. Taylor                                      June 1, 2005
Gregory R. Stinson
Memorandum from the Office of the Inspector General



June 1, 2005

Paul R. LaPointe, ET 5B-K
Randy P. Trusley, WT 5C-K

REQUEST FOR MANAGEMENT DECISION – AUDIT 2005-032F – RECEIVE AND
INSPECT MATERIAL PROCESS INTERNAL CONTROL REVIEW



Attached is the subject final report for your review and management decision. You are
responsible for determining the necessary actions to take in response to our findings.
Please advise us of your management decision within 60 days of the date of this report.

Information contained in this report may be subject to public disclosure. Please advise
us of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Rick L. Taylor, Senior Auditor, at (865) 632-7321
or Louise B. Beck, Manager, Financial and Operational Audits, at (865) 632-2622. We
appreciate the courtesy and cooperation received from your staff during this review.



Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

RLT:JP
Attachment
cc (Attachment):
     Franklin E. Alford, SP 1A-C
     Tom D. Kilgore, ET 12A-K
     Richard W. Moore, ET 4C-K
     Ellen Robinson, ET 12A-K
     OIG File No. 2005-032F
Office of the Inspector General                                        Audit Report


SYNOPSIS
The Office of the Inspector General (OIG) audit personnel conducted
an audit to assess controls over Tennessee Valley Authority's (TVA)
Receipt and Inspection (R&I) inventory 1 process. Our audit included
the controls in place as of May 16, 2005. According to Procurement
information, as of April 30, 2005, TVA's inventory of material was
about $319 million with typical annual inventory receipts of about
$150 million. TVA had 226 employees managing this inventory at
83 TVA locations.

In summary, we found TVA's control design for the R&I process was
suitably designed to prevent or detect, on a timely basis, material
misstatements in significant accounts and disclosures. More
specifically, we determined (1) the policies and procedures accurately
reflect the current practices described by management, and (2) the
process includes the key control activities required to satisfy
information processing objectives and the relevant financial statement
assertions. However, we noted TVA's Risk Control Tracking System
(RCTS) could be updated to more accurately reflect key financial
controls of the R&I process.


BACKGROUND
TVA's Materials Management group within the Procurement
organization is responsible for managing TVA's material inventory. As
of April 30, 2005, TVA's inventory of material was about $319 million
with typical annual inventory receipts of about $150 million. TVA had
226 employees managing this inventory at 83 TVA locations.

The primary objectives of the R&I process are to ensure (1) inventory
received is usable and recorded accurately and timely, (2) only goods
ordered are received and recorded in the appropriate period, (3) all
stored materials are adequately safeguarded, and (4) all defective or
rejected products received and excessive inventories are returned to
suppliers timely and the transactions are recorded in the appropriate
period.

In order to meet these four primary objectives, Procurement's policies
and procedures require personnel to (1) inspect and count the
material when it is received, (2) match purchasing documentation to


1
    For purposes of this report, inventory means material inventory.
Audit 2005-032F                                                             Page 1
Office of the Inspector General                                Audit Report


material received, (3) restrict access to inventory, and (4) monitor and
segregate rejected materials to ensure timely returns.


OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to assess controls over the R&I process. The
scope of the audit was R&I process controls as of May 16, 2005. We
obtained an understanding of controls and processes relating to
receiving and inspecting material inventory by:

•   Accessing RCTS to obtain all the related
    information/documentation for the R&I process.
•   Interviewing Procurement personnel to gain an understanding of
    the process and obtain additional control documentation.
•   Using information obtained to document and flowchart the R&I
    process.
•   Conducting a walkthrough of the process with Procurement
    personnel to (1) confirm our understanding of the process and key
    control activities, (2) identify areas where process and/or control
    documentation needs to be prepared or updated, and (3) identify
    any additional mitigating control activities.
•   Participating in a Fraud Risk Assessment with Procurement and
    OIG investigative personnel to identify possible fraud schemes and
    weaknesses in internal controls related to material management.
•   Using information obtained in the walkthrough and Fraud Risk
    Assessment to assess the control design and documentation.

This audit was performed in accordance with generally accepted
government auditing standards. Although we did not test for
compliance with laws and regulations, nothing came to our attention
during the audit that indicated noncompliance with laws and
regulations.


FINDINGS
We found TVA's control design for the R&I process was suitably
designed to prevent or detect, on a timely basis, material
misstatements in significant accounts and disclosures. More
specifically, we determined (1) the policies and procedures accurately
reflect the current practices described by management, and (2) the
process includes the key control activities required to satisfy
Audit 2005-032F                                                     Page 2
Office of the Inspector General                              Audit Report


information processing objectives and the relevant financial statement
assertions. However, we noted RCTS could be updated to more
accurately reflect key financial controls of the R&I process.

RCTS ISSUES
We identified two issues concerning the R&I process documentation in
RCTS. Specifically:

•   RCTS should be updated to delete the following control:
    "shipments are not received that are not on the receiving manifest
    or that cannot be otherwise documented" (RCTS Control Activity
    No. H.2.B.2). We discussed this control with Procurement
    management, and we mutually agreed this was not a key financial
    control but was an operational control.

•   RCTS contained the following three controls that should be
    included in the Manage Site Material process instead of the R&I
    process. Procurement management agreed with our assessment
    of these controls.

    1. All issues and returns are accompanied by the appropriate
       documentation (RCTS Control Activity No. H.2.E.1).

    2. Pick Ticket quantities are entered into the system by authorized
       personnel (RCTS Control Activity No. H.2.E.3).

    3. Material is required to be issued to an order within an
       established time period after the material has been picked
       (RCTS Control Activity No. H.2.E.4).

We recommend Procurement take corrective action as discussed
above.




Audit 2005-032F                                                     Page 3
